                                        Department of the Interior 
                                        Office of Inspector General 
                                                                    
                                                                              
                                                                              
                                                                              
                        AUDIT REPORT 
                     
                     
                      U.S. Fish and Wildlife Service 
                   Federal Assistance Program Grants 
                   Awarded to the State of California, 
                     Department of Fish and Game, 
                From July 1, 2004, Through June 30, 2006 
                                       
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0011­2007                              March 2008 
                    United States Department of the Interior
                                    OFFICE OF INSPECTOR GENERAL
                                    12030 Sunrise Valley Drive, Suite 230
                                            Reston, VA 20191

                                                                                                      March 14, 2008

                                               AUDIT REPORT
Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Christina M. Bruner
              Director of External Audits

Subject:      Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
              Awarded to the State of California, Department of Fish and Game From
              July 1, 2004, Through June 30, 2006 (No. R-GR-FWS-0011-2007)

        This report presents the results of our audit of costs incurred by the State of California
(State), Department of Fish and Game (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the Department under the Federal
Assistance Program for State Wildlife Restoration and Sport Fish Restoration (Federal
Assistance Program). The audit included claims totaling approximately $66.2 million on 37
grants that were open during State fiscal years (SFYs)1 2004 and 2005, which ended June 30,
2005 and 2006, respectively (see Appendix 1). The audit also covered Department compliance
with applicable laws, regulations, and FWS guidelines, including those related to the collection
and use of hunting and fishing license revenues and the reporting of program income.

        We found that the Department spent hunting and fishing license revenues in accordance
with federal regulations, passed required assent legislation, and has adequate control over
personal and real property. However, we questioned costs totaling approximately $1.4 million
that were unsupported, unauthorized, or claimed under another federal award. We also found the
Department had inadequate internal controls over grantee financial management, did not perform
required project level accounting, and did not report all the program income earned under the
grants.

       We provided a draft report to FWS and the Department for a response. We summarize
the Department and FWS Region 8 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 4.




1
 California uses the calendar year in which the State’s fiscal year begins to designate the fiscal year; e.g., fiscal year
2004 began on July 1, 2004 and ended on June 30, 2005.
       Please respond in writing to the findings and recommendations included in this report by
June 12, 2008. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Tim
Horsma, or me at 703–487–5345.

cc:    Regional Director, Region 8, U.S. Fish and Wildlife Service




                                               2
                                                Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)2 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $66.2 million on 37 grants, including 12
motorboat access grants, that were open during SFYs 2004 and 2005 (see Appendix 1). We
report only on conditions that existed during the audit period. We performed our audit at
Department headquarters in Sacramento, CA, and visited a regional office, seven wildlife areas
(WAs), and a fisheries facility (see Appendix 3). We performed this audit to supplement, not
replace, the audits required by the Single Audit Act Amendment of 1996 and by Office of
Management and Budget Circular A-133.




2
    16 U.S.C. §§ 669 and 777, as amended, respectively.



                                                          3
Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to review equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes, and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a sample of transactions in
these systems for testing. We did not project the results of the tests to the total population of
recorded transactions or evaluate the economy, efficiency, or effectiveness of Department
operations.

Prior Audit Coverage

On July 15, 2005, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of California, Department of Fish and Game, from
July 1, 2001, through June 30, 2003 (R-GR-FWS-0018-2003)” and “Audit Report on the U.S.
Fish and Wildlife Service Federal Assistance Motorboat Access Grants Administered by the
State of California, Department of Fish and Game, from July 1, 2001, through June 30, 2003
(R-GR-FWS-0003-2005).” We followed up on all recommendations in these reports and found
that the Department of Interior, Office of the Assistant Secretary for Policy, Management, and
Budget (PMB) considers 16 recommendations resolved but unimplemented. The corrective

                                                 4
actions have either not been taken or documented for these recommendations. These
recommendations pertain to costs claimed for unauthorized activities and accrued leave,
unsupported costs, unreported program income, loss of control of land funded with Federal
Assistance Program grant funds, inaccurate license certifications, inadequate controls over
documentation of labor costs, and inadequate controls over equipment.

In areas where deficient conditions still existed during the audit period, we developed a finding
and both repeated existing recommendations and made new recommendations. The resolution
and implementation of repeat recommendations will be tracked under the resolution process for
the prior audit. Accordingly, FWS should send documentation pertaining to these
recommendations to PMB. The resolution and implementation of new recommendations will be
tracked under the resolution process for this audit, and FWS should send relevant documentation
for these recommendations to us.

We reviewed California’s Comprehensive Annual Financial Report and single audit report for
SFY2004. The Department’s Federal Assistance Programs were not selected for compliance
testing in the single audit. Further, the SFY2004 single audit report did not contain any findings
that would directly impact the Department’s Federal Assistance Program grants or programs
under the grants.




                                                5
                                     Results of Audit

Audit Summary
We found that the Department spent hunting and fishing license revenues in accordance with
federal regulations, passed required assent legislation, and had adequate control over personal
and real property. However, we identified several conditions that resulted in the findings listed
below, including questioned costs totaling approximately $1.4 million. We discuss the findings
in more detail in the Findings and Recommendations section.

       Questioned Costs. We questioned approximately $1.4 million in costs claimed on eight
       grants. We questioned costs that were unsupported, unauthorized, and related to
       inappropriately charged payments for employee leave.

       Inadequate Internal Controls Over Grantee Financial Management. The
       Department did not have adequate internal controls to account for Federal Assistance
       Program grant expenditures. As a result, the Department could not identify the
       composition of certain costs claimed and could not readily provide support for the costs.

       Required Project Level Accounting Not Performed. Due to shortcomings in the
       Department’s budgeting and accounting procedures, it was unable to account for grant
       expenditures at the project level for 12 grants that required that level of accounting.

       Unreported Program Income. The Department had not reported all program income
       generated under eight Federal Assistance Program grants. The sources of income
       included activities on lands within certain wildlife areas (such as hunting-related
       activities and grazing), entrance fees, housing rents, and other fees.

Findings and Recommendations

A.     Questioned Costs—$1,381,957

       1. Unsupported and Ineligible Matching Costs Claimed—$1,376,273

           The Department must incur both the federal share and matching State share of grant
           expenditures before requesting reimbursement for the federal share of grant costs.
           The Department, to meet its State matching requirement, used 1) expenses for salaries
           and operations that it paid for with non-federal funds and 2) the value of third-party
           in-kind (non-cash) contributions. We calculated that the Department claimed
           $1,835,030 of unsupported and ineligible matching costs on eight grants. We are
           questioning $1,376,273 in associated federal costs reimbursed to the Department
           ($1,835,030 times 75 percent = $1,376,273).




                                                6
         The Code of Federal Regulations (C.F.R.) contains multiple requirements, as outlined
         in the table below, which the Department did not follow in claiming its matching
         share of costs.


 C.F.R. Reference                                        Requirement

2 C.F.R. § 225             Appendix A, Section C, defines allowable costs as those that are
(OMB Circular A-87)        necessary and reasonable, allocable and authorized, and adequately
                           documented. Appendix B.8.h.4 requires grantees to support the
                           distribution of the salaries or wages of employees who work on
                           multiple activities by documentation, such as personnel activity
                           reports, which reflects after-the-fact distribution of the activity of each
                           employee.
43 C.F.R. § 12.60(a)(2)    Requires each State to maintain a financial management system that
                           permits the tracing of funds to a level of expenditures adequate to
                           establish compliance with grant provisions.
43 C.F.R. § 12.60(b)(6)    Requires that accounting records must be supported by such
                           documentation as time and attendance records.
43 C.F.R. § 12.64(b)(6)    Provides that costs and third party in-kind contributions must be
                           verifiable from the records of grantees. These records must show
                           how the value placed on third party in-kind contributions was derived.
                           Section 12.64(c) and (d) provide guidance on the valuation of
                           volunteer services and donated third party supplies.
50 CFR § 80.15(a)          Requires grantees to support all costs by source documents or other
                           records that substantiate the application of funds.
50 C.F.R. § 80.16          Requires the grantee to incur costs before the grantor pays the
                           federal share of allowable costs.


                               Table 1. Applicable Federal Requirements

         When the Department used non-federal cash expenditures to meet the matching
         requirement, it used costs recorded in the accounting system that were not specifically
         identified with a grant. The costs generally consisted of Department supervisory and
         staff labor costs. The Department should have, but did not, support those costs with
         time sheets that have sufficient detail to determine the number of hours (and therefore
         the associated costs) employees spent on grant-related activities.

         In addition, the Department claimed as the State match on grants W-64-D-22 and
         W-64-D-23 costs for permanent salaries at the Yolo Bypass WA and activities at
         Tehama, WA. The salaries and activities were not authorized under the grants.
         Additionally, the costs claimed for salaries at Yolo Bypass were not supported with
         sufficient time sheet detail. Finally, the Department inappropriately claimed costs as
         State match that were also claimed as the State matching share of costs under another
         federal award with the Bureau of Reclamation.




                                                7
We also found that the value of in-kind contributions for which the Department
provided support did not match the value of in-kind contributions claimed. The
Department claimed certain goods received as the State matching share of costs based
on the amount needed to support the federal share, rather than determining the
amount accumulated.

We summarize in the table below the amount by which the Department fell short in
meeting its State matching share of costs and the associated federal share of
questioned costs. We provide additional detail on these costs in Appendix 2.

                                Nature of Questioned Costs
                                                         Other       Questioned
    Grant        Total                                  Federal       Federal
  Number       Questioned   Unsupported Unauthorized Award             Share
 F-4-D-55        $239,328       X                                      $179,496
 F-49-AE-18        73,734       X                                        55,301
 F-49-AE-19       124,359       X              X                         93,269
 F-51-R-17        545,788       X              X           X            409,341
 F-51-R-18        199,905       X              X           X            149,929
 W-64-D-22        224,671       X              X                        168,503
 W-64-D-23        409,420       X              X                        307,065
 W-65-R-22         17,825       X                                        13,369

       Total   $1,835,030                                             $1,376,273


                         Table 2. Questioned Costs

We reported in our prior audit that the Department had not routinely monitored its
expenditures of the State matching share of grant costs. It could not ensure that it
incurred and adequately documented sufficient costs or in-kind contributions prior to
each drawdown (request for reimbursement) of Federal Assistance Program funds. In
response to the prior audit, the Department developed procedures to record grant
matching costs.

Based on our current review, the Department’s policies and procedures were
insufficient to ensure it maintained adequate support for all costs claimed under the
grant. We found the Department adequately supported drawdowns when it claimed
costs that were directly associated with a grant in the accounting system and used 25
percent of the costs to meet the State matching requirement. However, as described
above, the Department generally failed to adequately support the State matching share
of costs when it used either the value of in-kind contributions or salaries and
operational expenses that were not directly associated with a grant in the accounting
system. It generally used such expenses as the State matching share of costs in the
final drawdown, when it claimed any remaining grant funds at the end of the grant
period. According to a Department official, additional procedures are being
considered to require additional time sheet detail that identifies work performed that
is grant related.



                                    8
We repeat two open recommendations from the prior audit and make one new
recommendation. The Department has not yet taken action to implement this
recommendation. Implementation of the repeat recommendations will be tracked
under the resolution process for the prior audit report (R-GR-FWS-0018-2003).

Repeat Recommendations

We recommended in our prior audit report that FWS require the Department to:

   •   develop and implement policies and procedures to determine and record in its
       accounting system the value of in-kind services and donated goods that are
       claimed as the State’s matching share of grant costs (Recommendation C.2. in
       the prior audit report); and

   •   establish and implement procedures to ensure that it has incurred and recorded
       sufficient costs and/or received in-kind services to meet matching share
       requirements before Federal Assistance [Program] funds are drawn down;
       these procedures should include the identification of specific transactions that
       support the amount claimed as the Department’s matching share
       (Recommendation C.3. in the prior audit report).

New Recommendation

We recommend that FWS resolve the questioned costs of $1,376,273 by requiring the
Department to provide sufficient support for the unsupported costs, claim only
allowable costs, and pay back or offset any remaining questioned costs.

Department Response

Department officials concurred with the recommendation. They stated in response to
the prior audit report, they developed guidelines and policies on how to identify and
record in-kind and other non-federal contributions in their accounting systems. To
improve the Department’s performance, they will revise these guidelines to clarify the
accounting processes for drawdowns and will provide training to Department staff.
Officials also stated they are reviewing support documents for the grants in question.
Upon completion of this review, the officials will submit to FWS a package of
supporting documentation. They also indicated they plan to refund or offset under a
current grant any sustained questioned costs.

FWS Response

FWS regional officials concurred with the recommendation.




                                    9
   OIG Comments

   While FWS concurred with the recommendation and Department officials indicated
   they are taking action to address it, additional information is needed in the corrective
   action plan. The plan should include:

   •   specific actions taken or planned to resolve the questioned costs,

   •   targeted completion dates,

   •   titles of officials responsible for implementation, and

   •   verification FWS headquarters officials reviewed and approved of actions taken
       or planned by the Department.

2. Costs Claimed for Accrued Leave — $5,684

   The Department charged two Federal Assistance Program grants a total of $7,579
   more than the grants should have been charged for lump sum retirement and leave
   payouts (Grant F-51-R-18 was charged $5,568 and Grant W-64-D-23 was charged
   $2,011). The payouts went to three Department employees who retired or separated
   from State service during SFYs 2004 and 2005. The Department charged the grants
   the full amount of leave owed to the employees,
   rather than allocating to each grant only the       Example of Equitable
   portion of leave earned under the grant during      Leave Allocation
   the grant period. We are questioning the $5,684
   ($7,579 times 75 percent federal share              Instead of charging the total
                                                       cost for leave payouts to a
   reimbursement) in associated federal costs          single grant at the time an
   reimbursed to the State for lump sum leave          employee retires, the
   payouts charged to the two grants.                  Department could charge
                                                          leave costs as an expense
   Under 2 C.F.R. § 225, Appendix A, Section C            as the leave is earned
                                                          through the fringe benefit
   (which replaces Office and Management and              rate or some other means.
   Budget Circular A-87), to be allowable under
   federal awards, costs must be necessary,
   reasonable, and allocable to the federal award. In addition, the Government
   Accounting Standards Board Statement Number 16 states that when an employer will
   likely pay unused vacation leave as a cash payment if an employee retires or leaves,
   the employer should accrue as a liability the cost for the vacation leave as the
   employee earns the leave.

   An official stated that prior to April 2005, the Department charged each employee’s
   total leave payout to the Federal Assistance Program grant he or she worked on at the
   time of retirement or separation from State service. This official stated that due to a
   similar finding in the previous audit, the Department began charging leave payouts to
   State funds. In May 2006, the Department stopped charging State funds after it was


                                        10
discovered that some lump sum payments included retroactive pay and overtime.
This official also stated that the Department has no way to utilize the labor system to
code payments to the proper funding source.

While we understand the Department’s systems have limitations, federal regulations
require it to allocate leave equitably. We also note that we recommended in the prior
audit that the Department resolve questioned costs associated with improper leave
payout. To resolve these costs, the Department proposed revising prior grants’
financial status reports (SF-269s) to include in the total outlays charging the leave
payout earned under prior grant periods to those grant periods, because it did not
claim enough costs to receive the full amount of federal funds available under those
grants. We believe this is inappropriate because funds are required to be obligated
within two years of being apportioned, and the two-year period has passed.

We repeat one open recommendation from the prior audit and make two new
recommendations. The Department has not yet taken action to implement this
recommendation. The implementation of the repeat recommendation will be tracked
under the resolution process for the prior audit report (R-GR-FWS-0018-2003).

Repeat Recommendation

We recommended in our prior audit report that FWS require the Department to
discontinue the practice of allocating leave costs to projects based on employees’ pre-
assigned projects [that employees worked on at the time of their separation from State
service] and to establish an equitable policy and procedure to allocate leave costs to
Federal Assistance Program grants and other projects (Recommendation B.2. in the
prior audit report).

New Recommendations

We recommend that FWS:

1. resolve the $5,684 in questioned costs; and

2. require the Department to determine whether it made additional inequitable leave
   payments during the grant period, and if so, resolve associated costs.

Department Response

Department officials concurred with the recommendations. They stated that they
made permanent a temporary policy they established in response to the prior audit for
allocating leave costs to Federal Assistance Program grants. They are reviewing
leave payments made under the current audit period to determine if additional
inequitable leave payment were made.




                                     11
        FWS Response

        FWS regional officials concurred with the recommendations.

        OIG Comments

        While FWS concurred with the recommendations and Department officials indicated
        they are taking action to address the recommendations, additional information is
        needed in the corrective action plan. The plan should include:

        •   specific actions taken or planned,

        •   targeted completion dates,

        •   titles of officials responsible for implementation, and

        •   verification FWS headquarters officials reviewed and approved of actions taken
            or planned by the Department.

B.   Inadequate Internal Controls Over Grantee Financial Management

     The Department did not have adequate internal controls to account for Federal Assistance
     Program grant expenditures accurately. Specifically, we found that Department officials
     could not readily identify in their accounting system the composition of expenditures
     claimed on the SF-269s for certain grants, nor could they readily provide supporting
     documentation for the expenditures. Department officials proposed revising the affected
     SF-269s to correct any inaccuracies reported.

     Under 43 C.F.R. § 12.60(a), Standards for financial management systems, each State
     must have fiscal control and accounting procedures that are sufficient to allow for the
     preparation of reports and permit the tracing of funds to a level of expenditure adequate
     to establish compliance with grant provisions. Additionally, 50 C.F.R. § 80.15(a)
     requires each State to support all costs with source documents or other records to
     substantiate the application of funds. Pursuant to 50 C.F.R. § 80.16, Federal aid
     payments, the grantor may pay the federal share of allowable costs only after the State
     incurs the costs when accomplishing approved projects. Finally, 2 C.F.R. § 225, Cost
     Principles for State, Local, and Indian Tribal Governments (OMB Circular A-87)
     specifies that allowable costs under federal awards must be necessary and reasonable, be
     allocable and authorized, and be adequately documented.

     The problems with internal controls led the Department to inaccurately report on the
     SF-269s (1) total outlays; (2) the Federal and State share of net outlays, including in-kind
     contributions claimed as the State matching share of costs; and (3) both program income
     and indirect costs.




                                              12
1. Total Outlays

   The Department budgeted for and captured grant costs using index and program
   cost accounts (PCAs) in its accounting system. The PCAs identify the funding
   source and the indexes identify the organizational unit doing the work funded by
   the grant. A majority of the PCAs were identified with specific grants. That is, in
   its accounting system, the State would label grant-related costs with PCAs
   designated to identify only those costs associated with an individual grant.
   However, the Department:

   •   initially claimed the total amount approved for certain grants, rather than
       using the PCAs to determine the actual expenditures it could claim;

transferred costs between PCAs in the accounting system after it had already claimed
the costs, which could result in excess costs claimed under one grant that in reality
belonged under another grant;

   •   initially had difficulty providing a comprehensive list of PCAs by grant to
       support the amounts claimed;

   •   provided lists that included PCAs assigned to more than one Federal
       Assistance Program grant and omitted relevant PCAs from the lists; and

   •   recorded costs in PCAs not associated with the grants and later had difficulty
       identifying which of these costs were grant-related.

2. State Matching Share of Costs

   We identified problems with both the cash outlays and in-kind contributions the
   Department claimed as the State matching share of costs. We describe these
   deficiencies in more detail, and identify associated questioned costs, in finding A
   of this report.

3. Program Income and Indirect Costs

   We found that the Department did not include in the total grant outlays those
   outlays that it funded using “program” income earned from activities that are
   grant-related. We discuss this issue further in finding D. We also found indirect
   costs claimed did not match the amount of indirect costs incurred, which we
   calculated by multiplying the indirect cost rate by the base of direct costs recorded
   in the accounting system. Indirect costs are those costs, such as administrative
   expenses, that cannot be identified with a particular grant or project.

   According to accounting and program personnel, the Department had not
   developed written policies and procedures to describe the accounting processes
   used to control and account for Federal Assistance Program funds and other


                                    13
program revenues. Written policies and procedures are a critical internal control.
They help to ensure that accounting procedures are applied consistently and that
costs are properly authorized, incurred, recorded, and used only for grant
purposes. Department officials stated that they are addressing this problem.

As a result of the deficiencies in the internal controls over the Department’s
grantee financial management system, FWS has no assurance that Federal
Assistance Program funds reimbursed the Department were for costs already
incurred, or that the reimbursement was for allowable expenses under the grants.

Recommendations

We recommend that FWS require the Department to:

1. review all SF-269s submitted to FWS for the 25 grants for SFYs 2004 and
   2005, provide adequate support for expenditures claimed—including total
   outlays, State and federal share of outlays, program income, and indirect
   costs—and revise the SF-269s so they include only those grant costs for which
   it has adequate support; and

2. develop and implement written policies and procedures that describe the
   budget and accounting processes used to control, account for, and report
   Federal Assistance Program funding and expenditures.

Department Response

Department officials concurred with the recommendations. They stated that they
will conduct a review of all SF-269s submitted to ensure that draw down amounts
are fully supported. Officials indicated they follow State policies when
processing accounting and budgeting documents. Based on the internal control
problems we identified, we believe the Department may need additional guidance
for its staff to ensure similar grant accounting problems do not occur in the future.

FWS Response

FWS regional officials concurred with the recommendations.

OIG Comments

While FWS concurred with the recommendations and Department officials
indicated they are taking action to address the problems with reporting on SF-
269s, additional information is needed in the corrective action plan. The plan
should include:

   •   specific actions taken or planned,




                                 14
                •   targeted completion dates,

                •   titles of officials responsible for implementation, and

                •   verification FWS headquarters officials reviewed and approved of actions
                    taken or planned by the Department.

C.   Required Project Level Accounting Not Performed

     FWS approved funding for multiple projects under 14 grants. The grant agreements
     required the Department to budget and account for costs at the project level, but the
     Department did not comply with this requirement on 12 of the grants. We identified
     several problems with the Department’s budgeting and accounting procedures that
     prevented the Department from meeting the requirement.

     The requirements of 43 C.F.R. § 12.70(c) apply to each project in the grants in question
     because the grant agreements required project-level, rather than grant-level, accounting.
     For grants and projects exceeding $100,000, the regulation requires a grantee to obtain
     approval of the awarding agency for cumulative transfers among the separately budgeted
     projects. This requirement applies when the transfers exceed 10 percent of the total
     approved budget.

     The Department’s internal recordkeeping system would allow it to accumulate and track
     costs at the project level. However, the Department’s program staff had not requested
     that budget and accounting staff establish unique cost accounts for each grant project.
     Therefore, program staff:

            • budgeted for multiple grant projects using shared PCAs, rather than budgeting
                for each project using a unique PCA;

            • failed to account for anticipated program income by project in the grants’
                project budgets and to report the actual use of program income by project; and

            • recorded costs in established PCAs that did not differentiate among grant
                projects and used additional accounts, besides those identified in grant
                budgets, to capture and record grant costs.

     As a result, the Department was unable to provide FWS with an accurate record of the
     total costs for each project. The FWS therefore has no assurance that funds were spent in
     accordance with the approved grant and project budgets.

     Recommendations

     We recommend that FWS require the Department to:




                                             15
     1. provide an analysis and accounting of project costs by grant for SFYs 2004 and 2005,
        and

     2. establish a policy and implement procedures to account for and report grant costs at
        the project level when the grant agreements require that level of accounting.

     Department Response

     Department officials concurred with the recommendations. They stated that they will
     establish individual index and program cost accounts (PCAs) at the project level for all
     FWS grants, including individual PCAs for program income.

     FWS Response

     FWS regional officials concurred with the recommendations.

     OIG Comments

        While FWS concurred with the recommendations and Department officials indicated
        they are taking action to address them, additional information is needed in the
        corrective action plan. The plan should include:

        •   specific actions taken or planned,

        •   targeted completion dates,

        •   titles of officials responsible for implementation, and

        •   verification FWS headquarters officials reviewed and approved of actions taken
            or planned by the Department.

D.   Unreported Program Income

     Federal regulations allow grantees to earn income as a result of grant-supported activities,
     but require them to report and account for the income in an agreed-upon manner. The
     Department earned but did not report program income received or the associated
     expenses to FWS on the SF-269s for eight grants.

     Title 43 C.F.R. § 12.65(b) defines program income as gross income a grantee receives
     that is “directly generated by a grant supported activity, or earned only as a result of the
     grant agreement during the grant period.” The FWS Manual (522 FW 19.4, Exhibit 1(1))
     requires grantees to report income they receive from contractor-provided services that
     support grant objectives on lands purchased or managed with grant funds. Titles 43
     C.F.R. § 12.60(a)(2) and 50 C.F.R. § 80.15(a) also require each State to be able to track,
     through its financial management system, funds at a level that is adequate to demonstrate
     compliance with grant provisions.


                                              16
        The Department earned income under grants W-64-D-22 and W-64-D-23 from user fees
        for grazing, hunting-related activities, and employee housing rentals. The Department
        also entered into barter arrangements in which farmers, in exchange for use of land on the
        wildlife areas and in lieu of paying cash, left crops for wildlife. The value of the crops is
        “barter income.” The cash and barter-earning activities took place on wildlife areas
        operated and maintained under the two grants, but the Department did not report the
        income earned as program income.3

        Department officials estimated they would receive $1,643,661 in program income under
        grants W-64-D-22 and W-64-D-23 for activities related to wildlife habitat development
        and maintenance. Department officials told us that cash income was included in the
        projected program income amount in the grant agreements but the “barter income” was
        not. We could not readily identify from the accounting system or from other support how
        much program income the Department actually earned in cash or barter. We did,
        however, determine how much program income it spent for these grants. We concluded
        that the Department received at least as much program income as it spent. Accordingly,
        we believe the Department received at least $653,050 under Grant W-64-D-22 and
        $836,883 under Grant W-64-D-23.

        The Department also failed to report program income on the following six grants. We
        could not determine the net effect for these grants due to lack of supporting
        documentation on program income received.

             • On grants F-49-AE-18 and F-49-AE-19, the Department used the value of hours
                 donated ($70,020) by volunteers who conducted tours at the Elkhorn Slough
                 Ecological Reserve as part of its required matching share of State grant costs. As
                 entrance fees are received from the public, we believe claiming the value of
                 volunteer hours may require the revenue received to be reported as program
                 income.

             • On grants F-114-D-2 and F-114-D-3, the Department received rent on employee
                 residences at trout and salmon hatcheries. The Department claimed the cost of
                 materials used to repair the residences as the State matching share of costs,
                 making the rental income program income.

             • On grants W-58-HS-33 and W-58-HS-34, the Department earned $75,353 and
                 $62,308, respectively; from replacement cards hunters purchased to prove they
                 completed hunter education safety courses. While Department officials told us

3
  In finding A.1 we questioned costs claimed by the Department that were related to salaries and unauthorized
activities at Yolo Bypass and Tehama WAs. A portion of the program income we identified that was earned under
W-64-D-22 and W-64-D-23 related to these salaries and activities. Had the salaries been approved and activities
been authorized, the related revenue would become program income. Whether income earned from these activities
should be treated as program income will depend on FWS disposition of the recommendations in finding A.1. If
they allow costs claimed for income-earning activities at Yolo and Tehama as eligible costs, associated income
earned should be treated as program income. If they disallow the costs, the income earned from activities on these
WAs is not program income.


                                                        17
       they deducted this amount from net outlays reported on the SF-269s, they did not
       report the income as program income on the SF-269s or provide documentation to
       support how they accounted for the income.

Our prior audit also contained a finding on unreported program income. According to a
Department official, in accordance with a policy issued in response to the prior audit
recommendations, the Department included in the applications for federal assistance and
grant agreements for grants W-64-D-22 and W-64-D-23 projected program income of
$702,061 and $941,600, respectively. The Department official believed including
estimated program income in the grant agreement was sufficient to meet program income
reporting requirements.

The Department must not only project program income that will be earned, but must also
account for its use on the SF-269. By understating the program income and related
expenses on the SF-269s for the affected grants, the Department provided FWS no means
to ensure the Department spent the program income received appropriately.
Additionally, under the grant agreements and 43 C.F.R. § 12.65(g), program income
received should have reduced both the federal and State share of grant costs. The
Department could be reimbursed more than it should be for grant-related expenses if it
fails to report all program income.

We repeat one open recommendation from the prior audit and make three new
recommendations. The Department has not yet taken action to implement this
recommendation. The implementation of the repeat recommendation will be tracked
under the resolution process for the prior audit report (R-GR-FWS-0018-2003).

Repeat Recommendation

We recommended in our prior audit report that FWS require the Department to develop
policies and implement procedures to identify and report [on the SF-269s] as program
income, the value of all goods, services, improvements, or other benefits it receives from
grant-related activities. This includes the value of crops or other goods and services
received from farming activities on wildlife areas that are maintained and operated with
Federal Assistance [Program] funds. The estimated amounts of all program income
should also be included in the Department’s Applications for Federal Assistance
(Recommendation D.2. in the prior audit report).

New Recommendations

We recommend that FWS:

1. determine whether the Department received any excess reimbursement on grants
   W-64-D-22, W-64-D-23, F-49-AE-18, F-49-AE-19, F-114-D-2, F-114-D-3,
   W-58-HS-33, and W-58-HS-34, and if so, require the Department to return it;




                                        18
2. require the Department to identify what expenses the program income received under
   the affected grants paid for and provide sufficient documentation to demonstrate these
   expenses are allowable as grant costs; and

3. require the Department to revise final SF-269s for the affected grants so they identify
   the program income received from grant-related activities and include in the total
   outlays those outlays related to program income.

Department Response

Department officials concurred with the recommendations. They stated that they
developed a policy in response to the prior audit recommendation, but acknowledged
they may need additional guidance. They will revise the Department’s grant guidelines
on the reporting of program income and accounting for all goods, services,
improvements, or other benefits it receives from grant related activities. The Department
also stated that it has begun a review to identify excess grant reimbursement and will
submit to FWS the results of the review and supporting documentation.

FWS Response

FWS regional officials concurred with the recommendations.

OIG Comments

While FWS concurred with the recommendations and Department officials indicated they
are taking action to address them, additional information is needed in the corrective
action plan. The plan should include:

   •   specific actions taken or planned,

   •   targeted completion dates,

   •   titles of officials responsible for implementation, and

   •   verification FWS headquarters officials reviewed and approved of actions taken
       or planned by the Department.




                                        19
                                                                          Appendix 1
                                                                            Page 1 of 2

              CALIFORNIA DEPARTMENT OF FISH AND GAME
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                 JULY 1, 2004, THROUGH JUNE 30, 2006


                                                       Questioned Costs
                                                        (Federal Share)
   Grant       Grant       Claimed                          Cost
  Number      Amount        Costs1          Unsupported Exceptions           Total
F-4-D-54     $2,308,000   $2,308,000
F-4-D-55      2,316,000    2,504,820          $179,496                     $179,496
F-6-C-53        206,000      105,575
F-6-C-54        205,000      121,193
F-49-AE-18    2,320,000    2,076,299            55,301                        55,301
F-49-AE-19    2,287,000    2,847,161            93,269                        93,269
F-50-R-17     3,003,500    3,003,500
F-50-R-18     4,283,800    3,779,296
F-51-R-17     6,471,000    5,761,056           205,600      $203,741         409,341
F-51-R-18     6,038,470    5,438,206            44,128       109,977         154,105
F-68-R-14       218,000      217,455
F-68-R-15       266,000      239,359
F-89-D-8        422,217      415,785
F-89-D-9        404,902      358,111
F-95-B-1      3,414,952    3,142,762
F-97-B-1      2,353,816    2,353,816
F-101-B-1       338,600      893,745
F-104-B-1       278,780      271,039
F-107-B-1       436,304      636,304
F-108-B-1       620,496      583,557
F-112-B-1*    1,498,976       60,000
F-113-B-1     3,141,133    2,664,632
F-114-D-2     3,257,000    2,827,894
F-114-D-3     3,117,000    3,828,258
F-115-B-1*    1,019,704       84,314
F-116-B-1       159,016      149,238
F-118-B-1*      230,000            0
F-119-R-1     1,161,555      321,881
F-120-B-1*      938,222            0
W-29-C-58       199,760      199,760
W-29-C-59       270,489      267,198




                                       20
                                                                                                Appendix 1
                                                                                                     Page 2 of 2

                        CALIFORNIA DEPARTMENT OF FISH AND GAME
                        FINANCIAL SUMMARY OF REVIEW COVERAGE
                           JULY 1, 2004, THROUGH JUNE 30, 2006


                                                                      Questioned Costs
                                                                       (Federal Share)
   Grant        Grant                    Claimed                           Cost
  Number       Amount                     Costs1           Unsupported Exceptions                     Total
 W-58-HS-33    1,467,500                 1,481,030
 W-58-HS-34    1,467,500                 1,464,809
 W-64-D-22     6,204,669                 5,832,677              74,608             93,895             168,503
 W-64-D-23     5,877,285                 6,670,178             286,642             21,931             308,573
 W-65-R-22     1,588,339                 1,430,895              13,369                                 13,369
 W-65-R-23     1,579,012                 1,865,715
      TOTALS $71,369,997               $66,205,518           $952,413            $429,544           $1,381,957


1. Represents total outlays shown on the financial status reports (SF-269).
* As the final SF-269 had not been prepared, we based the costs claimed on the amount reimbursed.




                                                      21
                                                                                   Appendix 2
                                                                                     Page 1 of 2

                    EXPLANATION BY GRANT OF QUESTIONED
              COSTS RELATED TO STATE MATCHING SHARE OF COSTS

                                 Nature of Questioned Costs
                                                            Other    Questioned
   Grant      Questioned                                   Federal     Federal      Explanatory
  Number       Amount      Unsupported     Unauthorized    Award        Share          Note
F-4-D-55        $239,328       X                                       $179,496          a
F-49-AE-18        73,734       X                                          55,301         b
F-49-AE-19       124,359       X                   X                      93,269         c
F-51-R-17        545,788       X                   X          X          409,341         d
F-51-R-18        199,905       X                   X          X          149,929         e
W-64-D-22        224,671       X                   X                     168,503         f
W-64-D-23        409,420       X                   X                     307,065         g
W-65-R-22         17,825       X                                          13,369         h
      Total   $1,835,030                                              $1,376,273



  a. F-4-D-55. The Department had insufficient time sheet coding detail to support
     $239,328 in labor costs claimed.

  b. F-49-AE 18. The Department had insufficient documentation and time sheet coding
     detail to support $73,734 claimed. The amount included in-kind contributions for urban
     fisheries city/county pond management, labor for interpretive services, and operational
     expenses.

  c. F-49-AE-19. The Department had insufficient documentation and time sheet coding
     detail to support $124,359 claimed. The amount included in-kind contributions for urban
     fisheries and interpretive services and labor for conservation education and interpretive
     services. In addition to the amount questioned as unsupported, the Department proposed
     excess matching costs (not included in the table above) that were not approved.

  d. F-51-R-17. The Department claimed $545,788 in unsupported and ineligible expenses,
     including unsupported labor and operational costs, costs for the purchase of fish food that
     was not authorized under the grant, and costs claimed under another federal award (the
     Interagency Ecological Program with U.S. Bureau of Reclamation).

  e. F-51-R-18. The Department claimed $199,905 in costs that were not supported, not
     approved (fish food), and related to another federal award (the Interagency Ecological
     Program with U.S. Bureau of Reclamation).




                                              22
                                                                              Appendix 2
                                                                                 Page 2 of 2

                EXPLANATION BY GRANT OF QUESTIONED
          COSTS RELATED TO STATE MATCHING SHARE OF COSTS

f. W-64-D-22. The Department claimed $224,671 in unsupported and ineligible expenses.
   These costs included cash outlays for (1) permanent salaries at Yolo Bypass WA and
   other labor costs that were not approved under the grant agreement and were not
   supported with enough detail in time sheet codes to tie to the grant and (2) outlays for
   activities at the Tehama WA that were not approved in the grant agreement. In addition
   to the amount questioned as unsupported, the Department proposed excess matching
   costs (not included in the table above) that were not approved.

g. W-64-D-23. The Department claimed $409,420 in unsupported labor and operational
   costs, and ineligible expenses. These costs included cash outlays for (1) permanent
   salaries at Yolo Bypass WA and other labor costs that were not approved under the grant
   agreement and were not supported with enough detail in time sheet codes to tie to the
   grant and (2) outlays for activities at the Tehama WA that were not approved in the grant
   agreement.

h. W-65-R-22. The Department claimed $17,825 in unsupported costs (no support was
   provided).




                                           23
                                         Appendix 3


CALIFORNIA DEPARTMENT OF FISH AND GAME
             SITES VISITED


              Headquarters

               Sacramento


             Central Region

                  Fresno


              Wildlife Areas

                Big Sandy
                  Doyle
                Honey Lake
                Los Banos
                 Mendota
            Pismo Lake Reserve
                  Volta


            Fisheries Facility

                La Grange




                   24
                                                                               Appendix 4


                      CALIFORNIA DEPARTMENT OF FISH AND GAME
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                    Status                        Actions Required
A.1, A.2.1, A2.2,       FWS management concurs        Additional information is needed in
B.1, B.2, C.1, C.2,     with the recommendations, but the corrective action plan, including
D.1, D.2, D.3           additional is needed as       the actions taken or planned to
                        outlined in the “Actions      implement the recommendations,
                        required” column.             targeted completion date(s), the title
                                                      of official(s) responsible for
                                                      implementation, and verification that
                                                      FWS officials reviewed and approved
                                                      of actions taken or planned by the
                                                      State. We will refer
                                                      recommendations not resolved and/or
                                                      implemented at the end of 90 days
                                                      (after June 12, 2008) to the Assistant
                                                      Secretary for Policy, Management
                                                      and Budget for resolution and/or
                                                      tracking of implementation.
B.2, C.2, C.3, D.2      Repeat recommendations from Provide documentation regarding the
                        our prior audit report (R-GR- implementation of these
                        FWS-0018-2003). PMB           recommendations to PMB.
                        considers these
                        recommendations resolved but
                        unimplemented.




                                            25
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
